                      luation


                      on




DEFENSE HOTLINE ALLEGATION ON BUNKER FUEL PURCHASES
                  AT NAPLES, ITALY



Report Number 98440                      May 28,1998




             Office of the Inspector General
                 Department of Defense
  Additional    Information   and Copies

  To obtain additional copies of this evaluation report, contact the Secondary
  Reports Distribution Unit of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit
  the Inspector General, DOD, Home Page at: WWW.DODIG.OSD.MIL.

  Suggestions    for Evaluations

  To suggest ideas for or to request future evaluations, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  and requests can also be mailed to:

                       OAIG-AUD (A‘ITN: APTS Evaluation Suggestions)
                       Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                       Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to
  Hotline@DODIG.OSD.MIL; or by writing to the Defense Hotline, The
  Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
  is fully protected.




Acronyms

DESC                   Defense Energy Support Center
DFAS                   Defense Finance and Accounting Service
MSC                    Military Sealift Command
NAVPETOFFINST          Navy Petroleum Office Instruction
NPO                    Navy Petroleum Office
NRCC                   Naval Regional Contracting Center
                            INSPECTOR     GENERAL
                           DEPARTMENT    OF DEFENSE
                             400 ARMY NAVY DRIVE
                           ARLINGTON, VIRGINIA 22202




                                                                           May 28, 1998



MEMORANDUM FOR ASSISTANT SECRETARY OF NAVY (FINANCIAL
               MANAGEMENT AND COMPTROLLER)


SUBJECT: Evaluation Report on Defense Hotline Allegation on Bunker Fuel
         Purchases at Naples, Italy (Report. No. 98-140)


        We are providing this report for your information and use. This is the first of
two reports on bunker fuel. We conducted the evaluation in response to a complaint
made to the Defense Hotline. We considered management comments on a draft of this
report in preparing the final report.

        Comments on the draft report conformed to the requirements of DOD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.

        We appreciate the courtesies extended to the evaluation staff. Questions on the
evaluation should be directed to Mr. John A. Gannon at (703) 604-9176
(DSN 664-9176), e-mail jgannon@dodig.osd.mil, or Lieutenant Colonel Thomas P.
Toole, U.S. Air Force, at (703) 604-9177 (DSN 664-9177), e-mail
ttoole@dodig.osd.mil.   See Appendix D for the report distribution. The evaluation
team members are listed inside the back cover.




                                        Robert J. Lieberman
                                     Assistant Inspector General
                                             for Auditing
                         Office of the Inspector General, DOD

Report No. 98-140                                                        May 28,1998
 (Project No. 7LB-8006.01)

           Defense Hotline Allegation on Bunker Fuel Purchases
                              at Naples, Italy


                                Executive Summary

Introduction. This evaluation was performed in response to a complaint made to the
Defense Hotline. The complainant alleged that the Navy purchased ship propulsion
fuel, also known as bunker fuel, from non-contract sources rather than from the
available Defense Energy Support Center (formerly the Defense Fuel Supply Center)
contract source on eight separate occasions at Naples, Italy, from October 1995 through
May 1996. The complainant further alleged that the Navy paid $92,448 more than it
would have if it had bought the fuel from the contract source.

Evaluation Objectives. Our evaluation objective was to determine whether
Government ships were purchasing bunker fuel from Defense Energy Support Center
contract sources at locations where contract fuel was available. We also evaluated
whether Defense Energy Support Center customer organizations provided ships’
officers sufficient guidance and oversight to ensure that Government ships were
purchasing bunker fuel from contract sources wherever possible. An additional
objective was to evaluate the management control program as it applied to the stated
objectives. We limited our evaluation to determining whether the specific Defense
Hotline allegations were substantiated.

Evaluation Results. The Defense Hotline allegation was generally substantiated. The
Navy paid at least $66,242 more in Naples, and an unknown additional amount in
Livomo, than it would have if the fuel had been purchased from the contract sources.
The bunker fuel contracts were not used principally because the Naval Regional
Contracting Center, Naples, did not receive timely notification that the contracts were
in place. The Navy Petroleum Office needs to improve controls to avoid repetition of
the problem.

Summary of Recommendations. We recommend that the Commanding Officer, Navy
Petroleum Office, establish effective communication procedures that promptly
distribute bunker fuel contract data to officials and organizations responsible for
ordering bunker fuel for Navy ships. Ideally, those procedures should include a
feedback mechanism to confirm that contract data was actually received so that prompt
action can be taken when ordering officials and organizations do not acknowledge
receipt of new or changed contract data.
Management     Comments.    The Navy concurred with our fmding and the intent of our
recommendation. However, the Navy stated that inclusion of a feedback mechanism to
confirm receipt from all possible ordering officials and organizations is impractical
based on the numbers involved. The Navy clarif%d that confirmation feedback will be
obtained from only those organizations requesting bunker fuel contracts. See Part I for
a discussion of management comments and Part III for the complete text of those
comments.

Evaluation   Response.    Comments from the Navy were responsive and no additional
comments are necessary.




                                           ii
Table of Contents

Executive Summary                                           i

Part I - Evaluation Results

      Evaluation Background                                2
      Evaluation Objectives                                3
      Purchases of Bunker Fuel From Non-Contract Sources   4

Part II - Additional Information

      Appendix A. Evaluation Process
         Scope and Methodology                             10
         Management Control Program                        11
      Appendix B. Summary of Prior Coverage                12
      Appendix C. Evaluation of Allegation                 13
      Appendix D. Report Distribution                      16

Part III - Management Comments
      Department of the Navy Comments                      20
Part I - Evaluation Results
Evaluation   Background

     This is the first report resulting from two related Defense Hotline complaints
     about bunker fuel purchases. The second report will address allegations that the
     Government was not paying bunker fuel sources in a timely manner because
     ships’ officers were not completing ordering and receiving forms correctly.
     This report addresses allegations that the Navy, on eight separate occasions
     from October 1995 through May 1996, purchased bunker fuel from non-
     contract sources even though contract bunker fuel was available to Navy ships at
     Naples, Italy. The complainant further alleged that the Navy paid $92,448
     more for the fuel than it would have if the Navy had purchased the fuel from
     the contract source.

     The Defense Energy Support Center (DESC), formerly the Defense Fuel Supply
     Center, located at Fort Belvoir, Virginia, is the central procurement agency and
     integrated manager of bulk petroleum products, including bunker fuel, within
     DOD. DE-SC establishes contracts at ports worldwide to supply U.S.
     Government ships with petroleum products at contract prices. The Navy
     Petroleum Office (NPO), located at Fort Belvoir, Virginia, provides technical
     direction for petroleum programs within the Navy. NPO develops, publishes,
     disseminates, and modifies directives and publications pertaining to the Navy’s
     petroleum products. NPO also develops and coordinates requirements for the
     Navy’s worldwide ships’ bunker fuel and related petroleum products. IWO
     submits those requirements to DESC for contract coverage. The Naval
     Regional Contracting Center (NRCC), Naples, Italy, provides functional
     management to field contracting organizations within its geographical area,
     which includes Africa, Europe, and the Middle East. NRCC also serves as a
     centralized purchasing organization for the Navy, except for aviation support
     items, in its geographical area.

     Bunker Fuel. Bunker fuel refers to fuel delivered to a ship and used to power
     the ship’s engines. DOD Manual 4140.25-M, “DOD Management of Bulk
     Petroleum Products, Natural Gas and Coal,” June 22, 1994, defines bunker fuel
     as fuel loaded onto a ship for its own use rather than as cargo. As the
     procurement activity for bunker fuel for use by DOD and other Government
     agencies, DEW has worldwide responsibility for bulk petroleum products until
     the products are sold to the Services. DESC regularly publishes a bunker fuel
     contract bulletin, which lists worldwide bunker fuel contracts. DESC updates




                                         2
     worldwide bunker fuel data with periodic supplements to the contract bulletin.
     These publications provide ordering officers and procuring organizations with
     the most current information available on participating contractors, locations,
     and ordering instructions.



Evaluation Objectives

     Our evaluation objective was to determine whether Government ships were
     purchasing bunker fuel from DESC contract sources at locations where contract
     fuel was available. We also evaluated whether DESC customer organizations
     provided ships’ officers sufficient guidance and oversight to ensure that
     Government ships were purchasing bunker fuel from contract sources wherever
     possible. An additional objective was to evaluate the management control
     program as it applied to the stated objectives. We limited our evaluation to
     determining whether the specific Defense Hotline allegations were substantiated.
     See Appendix A for a discussion of the evaluation scope and methodology and
     the results of the our review of DESC and Navy management control programs.
     See Appendix B for a discussion of prior coverage.




                                         3
            Purchases of Bunker Fuel From
            Non-Contract Sources
            All but one of the Navy ships identified in the Defense Hotline allegation
            purchased bunker fuel from non-contract sources rather than from the
            available DESC contract source. The remaining ship did not purchase
            fuel during the period alleged in the Defense Hotline complaint. On six
            occasions, fuel was purchased from non-contract sources because
            NRCC, Naples, did not receive timely notification from NPO that a
            bunker fuel contract was in force at Naples. For the seventh purchase,
            the Navy was not able to produce records on the quantity of fuel
            purchased, the amount paid, or justification for purchasing the fuel from
            a non-contract source at Livomo, Italy. As a result, we estimated that
            by not using the contract source for the six purchases at Naples, the
            Navy paid $66,242 more than necessary. We were unable to quantify
            the purchase cost impact at Livomo.



Notification Process

     DESC is responsible for negotiating and administering DOD bunker fuel
     contracts worldwide. Once a contract is signed, DESC notifies its customers
     and then publishes contract bulletins listing the contracts. DESC customers in
     turn are responsible for notifying their supply officers and ordering
     organizations that a contract has been signed and is in effect at a specific
     location.


Non-Contract Source Purchases

     Seven Navy ships were identified in the Defense Hotline allegation, with one
     ship making purchases on two different occasions. On six occasions, Navy
     ships purchased fuel from non-contract sources at Naples; one ship purchased
     fuel from a non-contract source at Livomo; and another ship did not purchase
     any fuel during the period alleged in the Defense Hotline complaint. Specific
     details are included in Appendix C. Although we could not determine the cause
     for the non-contract purchase at Livomo, we were able to identify a problem in
     contract notification for Naples.




                                         4
                            Purchases of Bunker Fuel From Non-Contract Sources


Naples Contract Notification

     DESC gave prompt contract notification to NPO, but NRCC, Naples, did not
     receive notification from NPO that a bunker fuel contract was in force at Naples
     until at least 250 days after the contract’s effective date.

     DESC Notification of Contract Data to NFO. Prompt contract notification
     was given by DESC to NPO. On September 29, 1995, DESC signed the first
     bunker fuel contract with a commercial source to supply bunker fuel to DESC
     customers at Naples. The contract was effective the same day. On that day,
     DESC hand delivered a copy of the contract to NPO. On October 12, 1995,
     DESC published Supplement No. 001 to Contract Bulletin SPO6OO-95-0013,
     which included the bunker fuel contract at Naples. DESC forwarded the
     bulletin to the various organizations that purchase bunker fuel, including NPO,
     and requested that they provide widest dissemination of the contract information
     to officials and organizations responsible for ordering bunker fuel.

     NPO Notification of Contract Data to NRCC. NRCC, Naples, did not
     receive timely notification that a bunker fuel contract was in force at Naples.
     NPO used Navy Petroleum Office Instruction (NAVPETOFFINST) 4290.1,
     “Commercial Contracts for Bunker Fuel,” September 29, 1995, to formally
    disseminate bunker fuel guidance and contract information to Navy ordering
    officials and organizations. NAVPETOFFINST 4290.1 was published on the
     same day as the effective date for the bunker fuel contract at Naples. NRCC,
    Naples, received a copy of the instruction. However, the instruction did not
    indicate that a DESC bunker fuel contract source was available at Naples. On
    October 3, 1995, NPO sent a message listing newly initiated DESC bunker fuel
    contracts, including the Naples contract, to selected Navy organizations.
    However, NRCC, Naples, was not an addressee on the message. On
    February 28, 1996, NPO published changes to NAVPETOFFINST 4290.1 that
    included the bunker fuel contract source at Naples. NRCC, Naples, was on the
    distribution list for the instruction but did not receive a copy until June 14,
    1996. NPO and NRCC, Naples, were unable to explain or determine the reason
    why NRCC, Naples, did not receive the updated instruction. There was no
    evidence that NRCC, Naples, was aware of the contract prior to June 14, 1996,
    almost 9 months after the contract effective date. We believe that a breakdown
    in the NPO notification process caused the Navy ships to purchase bunker fuel
    from non-contract sources at Naples.
Purchases of Bunker Fuel From Non-Contract Sources


Cost Impact

      We estimated that by not using the contract source for the six fuel purchases at
      Naples, the Navy paid an additional $66,242. We were unable to quantify the
      purchase cost impact at Livomo because NRCC, Naples, was not able to
      produce records on the quantity purchased and the amount paid. See Apendix C
      for details of our evaluation of the Defense Hotline allegation.



Management Actions

      The DESC significantly improved the process for disseminating contract change
      information by adding its Overseas Ships’ Bunkers Contract Bulletins and
      supplements to the DESC Web site, which is available to NPO, NRCC, Naples,
      and others via the Internet’s World Wide Web. If DJZSC posts contract change
      information on the World Wide Web when a contract is awarded, and if all the
      bunker fuel ordering officials have access to that information prior to a
      contract’s effective date, then DESC will significantly reduce the chance of a
      communication breakdown in the future. NPO will need to ensure that data on
      bunker fuel contract sources are disseminated to all ships’ supply officers and
      bunker fuel ordering personnel in a timely manner.



Recommendation, Management Comments, and Evaluation
Response

      We recommend that the Commanding Officer, Navy Petroleum Office,
      establish effective communication procedures that promptly distribute
      bunker fuel contract data to officials and organizations responsible for
      ordering bunker fuel for Navy ships. Those procedures should include a
      feedback mechanism to confirm that contract data was actually received so
      that prompt action can be taken in those instances when ordering officials
      and organizations do not acknowledge receipt of new or changed contract
      data.

      Management Comments. The Navy concurred with our finding and the intent
      of our recommendation. However, the Navy stated that inclusion of a feedback
      mechanism to confirm receipt from all possible ordering officials and
      organizations is impractical based on the numbers involved. The Navy stated
      that confirmation feedback will be obtained from only those organizations
      requesting bunker fuel contracts. The Navy also stated that after learning of the
      purchases in Naples (prior to the Defense Hotline allegation), NPO started


                                          6
                      Purchases of Bunker Fuel From Non-Contract Sources

making improvements in communication between DESC and its customers. The
improvements included NPO distributing contract information by military
message to requesting officials and organizations upon receipt of such contract
information from DESC and publishing the information as a transmittal change
to NAVPETOFFINST 4290.1, as warranted. NPO will also update
NAVPETOFFINST 4290.1, making it “user friendly, n by May 30, 1998.
Additionally, NPO has recently launched a Web site at which
NAVPETOFFINST 4290.1 is available for viewing and printing.

Evaluation. Response. We consider the Navy comments responsive and that
the alternative actions of NPO meet the intent of the recommendation. We
commend NPO for the actions taken.
Part II - Additional Information
Appendix A. Evaluation Process


Scope and Methodology

    Scope. We interviewed the complainant and reviewed the DES2 contract to
    supply bunker fuel at Naples. We reviewed the DESC Overseas Ships’ Bunker
    Contract Bulletin SPO600-954013, June 30, 1995, and subsequent supplements.
    We also reviewed guidance and interviewed operating personnel on the bunker
    fuel contract notification process at DESC. We reviewed the NPO bunker fuel
    contract notification procedures and 1995 instructions on availability of bunker
    fuel from commercial contract sources. We also reviewed the Commanders in
    Chief, U.S. Atlantic and Pacific Fleets, Fuel Management Afloat Manual,
    current as of 1995, which established precedence for sources of bunker fuel for
    Navy ships. We interviewed personnel at the Naval Support Activity at the port
    of Naples and obtained a listing of all Navy ships that were at the Naples port
    from October 1, 1995, through May 31, 1996. We then interviewed operating
    personnel at NRCC, Naples, and specifically reviewed contract records and
    Ship’s Port Visit Cost Reports from October 31, 1995, through May 31, 1996,
    for the ships identified in the Defense Hotline allegation. In addition, we
    interviewed the NRCC husbanding* agent and reviewed Logistics Requirements
    Reports from October 31, 1995, through May 31, 1996, for the ships identified
    in the Defense Hotline allegation. We reviewed correspondence between
    NRCC, Naples, and DESC subsequent to the Defense Hotline allegation.
    During our evaluation, we also exchanged administrative messages with the
    ships identified in the allegation to confirm the details of each of the eight
    purchases.

    Use of Computer-Processed Data. We did not use computer-processed data in
    the evaluation.

    Evaluation Type, Dates, and Standards. This economy and efficiency
    evaluation was performed from September through December 1997 in
    accordance with standards implemented by the Inspector General, DOD. We
    limited our tests of management controls.




    *Husbanding agents act on behalf of Navy ships in makin arrangements with
    port authorities and commercial firms for the provision o fgall the ship’s supplies
    and services in a foreign port.


                                         10
                                                  Appendix     A. Evaluation   Process


    Contacts During the Evaluation.    We visited or contacted individuals and
    organizations within and outside DOD. Further details are available upon
    request.



Management Control Program

    DOD Directive 5010.38, “Management Control Program,” August 26, 1996,
    requires DOD organizations to implement a comprehensive system of
    management controls that provides reasonable assurance that programs are
    operating as intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management       Control Program.    Our review of
    DESC and the Navy management control programs was limited to answering the
    Defense Hotline allegation. We did not attempt to determine if this problem
    existed at other locations. The management control weakness we identified is
    not material; therefore, we did not assess the adequacy of management’s self-
    evaluation of these controls.

    Adequacy   of Management    Controls.    The DESC management control
    program for disseminating bunker fuel contract data was adequate as it applied
    to the evaluation objectives. We identified a management control weakness
    relating to the Navy’s procedures for disseminating bunker fuel contract data.
    The Navy did not have effective procedures to ensure that DESC bunker fuel
    contract data was disseminated to ordering officials and organizations in a
    timely manner. Also, the Navy did not have any procedures to ensure that
    contract data disseminated was actually received. We did not consider this to be
    a material management control weakness. However, there is a risk that this
    may occur at other locations. Therefore, NPO needs to improve its controls
    over the prompt dissemination of bunker fuel contract data. The
    recommendation contained in this report, if implemented, will ensure that the
    Navy’s ordering officers receive timely information on changes in contract data.




                                       11
Appendix B. Summary of Prior Coverage

   During the last 5 years, the Office of the Inspector General, DOD, issued three
   reports that discussed bunker fuel and associated accounting systems.

   Inspector General, DOD, Report No. 95-262, “Bunker Fuel Operations,”
   June 29,199s. The report states that Military Sealift Command (MSC) was
   collecting and providing fuel consumption data to DESC in support of the
   continuation and establishment of bunker fuel contracts and the contracts were
   effectively used by DOD-controlled vessels. The report did not make
   recommendations.

   Inspector General, DOD, Report No. 95-259, “Internal Controls for the
   Military sealift Comman d Portion of the Transportation Business Area of
   the N 1994 Defense Business Operations Fund Fiincial Statements,”
   June 28, 1995. The report states that MSC internal control procedures were
   not effective and, as a result, the auditors were unable to establish a transaction
   trail from the account balances to underlying receipt and expenditure
   transactions. The report recommended that MSC transition toward using the
   DOD Standard General Ledger chart of accounts and take steps to correct other
   related accounting system and internal control structure weaknesses. MSC
   generally concurred with the audit recommendations and agreed to comply with
   DOD and Navy regulations on the internal controls related to financial data.

   Inspector General, DOD, Report No. 95216, “Bunker Fuel Payments,”
   June 2, 1995. The report states that DFAS overpayments to bunker fuel
   contractors occurred because of management control weaknesses. As a result,
   DFAS overpaid contractors about $3.2 million in FY 1993. The report
   recommended that DFAS strengthen management controls over the payment
   process, consolidate payment offices, and collect the overpayments from
   contractors. Management concurred with the recommendations and, in October
   1995, consolidated 19 DFAS payment offices to a single office in Columbus,
   Ohio.




                                        12
Appendix C. Evaluation of Allegation

   Allegation. The allegation was for the DESC contract for bunker fuel at
   Naples. The contract source alleged to have had a contract with DESC to
   supply bunker fuel to Government ships at Naples for deliveries from July 1,
    1995, through June 30, 1997. No delivery orders for bunker fuel were placed
   during the first year of the contract. However, on eight separate occasions from
   October 31, 1995, through May 31, 1996, Navy ships purchased bunker fuel
   through a husbanding agent at Naples. In addition, by comparing the prices
   paid by the Navy to the amounts that would have been paid had the fuel been
   ordered from the contract source, the complainant alleged that the Navy
   overpaid $92,448 for the purchases made on those eight occasions. Table C-l
   is a summary of the details given in the allegation.




            Table C-l. Details of Non-Contract Bunker Fuel Purchases
                    Provided by the DOD Hotline Complainant

                             Quantity Amount            Contract   Amount
     m            ShiD      {in gallons)        Paid      Price    Overpaid

   10/3 l/95    Boone         30,ooo $21,825           $ 18,121      $3,704
   1 l/27/95    Simpson       85,000   60,922            53,769        7,153
   12/19/95     Monterey     150,ooo  117,922           103,687       14,235
   01/08/96     Dewert        68,000   53,606            49,054        4,552
   05/ 10196    Radford       90,000   72,968            58,501       14,467
   05/27/96     Conolly      163,000  131,644           106,728       24,916
   05/30/96     Barry         90,ooo   72,968            61,641       11,327
   05/3 l/96    Radford      lOO.OMI   80.584            68.490       12.094

    Total                    776.000        $612.439   $519.991     $92.448



   Evaluation Response. The Defense Hotline allegation was substantiated. The
   Navy purchased bunker fuel from non-contract sources at Naples from
   October 3 1, 1995, through May 3 1, 1996. We estimated that the Navy paid at
   least $66,242 more than it would have if the fuel had been purchased from the




                                       13
Appendix C. Evaluation of Allegation

      contract source. Also, the DESC contract was effective on September 29,
      1995. As a result, no deliveries could have been made on the contract prior to
      September 29, 1995. The results of our evaluation are summarized in
      Table C-2.




                Table C-2. Details of Non-Contract Bunker Fuel Purchases
                                Determined in Evaluation

                                 Quantity            Amount     Contract   Amount
         Date        ShiD       fin eallons)          Paid        Price    Ovemaid

      10/3 l/95     Boone          30,000   $21,825            $ 18,121    $ 3,704
      1l/27/95      Simpson        85,172     59,620             53,769      5,851
      12119195      Monterey’           --         __                 __         __
      31/08/96      Dewert         68,000 2   58,606             47,005     11,601
      05/10/96      Radford        91,788     72,513             58,501     14,012
      35127196      Conolly       162,460    128,343            106,728     21,615
      35130196      Barry          90.000     71.100             61.641      9.459

       Total                      527,420           $412,007   $345,765    $66,242

      ‘Data was not available at NRCC. Personnel aboard Monterey indicated that
      the ship did not purchase fuel at Naples as alleged.

      ‘Data was not available at NRCC. Quantity listed was contained in the Defense
      Hotline allegation.




      Summary of Evaluation Response. We compared our evaluation results to the
      Defense Hotline allegation and concluded:

               o All but one of the Navy ships identified in the Defense Hotline
      allegation purchased bunker fuel from non-contract sources rather than from
      available DESC contract sources. On six occasions, Navy ships purchased fuel
      from non-contract sources at Naples. One ship also purchased fuel from a non-
      contract source at Livomo, but we were unable to quantify the purchase cost
      impact. As a result, the Livomo transaction is not included in Table C-2. The
      DESC contract source at Naples and the DESC contract source for the type of
      fuel purchased at Livomo were not the same. One ship identified in the


                                               14
                                         Appendix C. Evaluation      of Allegation


Defense Hotline allegation, Monterey, did not purchase fuel during the period
alleged. In response to our evaluation request, personnel aboard Monterey
indicated to representatives at NRCC, Naples, that their ship was at Naples but
they did not purchase fuel during the period alleged in the Defense Hotline
complaint.

        o The quantities of fuel purchased that the allegation identified were not
materially different from what we determined in our evaluation. Also, except
for the transaction on January 8, 1996, the contract prices alleged in the
Defense Hotline complaint were the same contract prices provided to us by
DESC. The Navy would have paid the lower contract prices if it had purchased
the fuel from the contract source.

       o The Navy overpaid at least $66,242 for the fuel it purchased from
non-contract sources.




                                   15
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
  Deputy Under Secretary of Defense (Logistics)
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)


Department of the Army
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Deputy Chief of Naval Operations (Logistics)
Auditor General, Department of the Navy
Commander, Naval Supply Systems Command
   Commanding Officer, Navy Petroleum Office


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
   Commander, Defense Energy Support Center
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                          16
                                                    Appendix D. Report Distribution



Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International    Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following       congressional
  committees and subcommittees:

     Senate Committee on Appropriations
     Senate Subcommittee on Defense, Committee on Appropriations
     Senate Committee on Armed Services
     Senate Committee on Governmental Affairs
     House Committee on Appropriations
     House Subcommittee on National Security, Committee on Appropriations
     House Committee on Government Reform and Oversight
     House Subcommittee on Government Management, Information, and Technology,
        Committee on Government Reform and Oversight
     House Subcommittee on National Security, Internal AfFairs, and Criminal Justice,
        Committee on Government Reform and Oversight
     House Committee on National Security




                                           17
Part III - Management   Comments
Department         of the Navy Comments


                               DEPARTMENT OF THE NAVY
                             OFFICE OF THE ASS4STAN-f SECRETARY
                           RESEARCH. DEVELOPMENT AND ACGOlSIl7ON
                                     ,000 NAVY PENTAGON            HAY 0 8 1998
                                  WASHINGTON DC 203!50-1000


      MEMORANDUM    FOR THE DEPARTMENT OF DEFENSE ASSISTANT        INSPECTOR
                              GENERAL FOR AUDITING

      SUBJECT:     DODIG Draft Evaluation Report On Defense Hotline
                   Allegation On Bunker Fuel Purchases At Naples,
                   Italy (Project No. 7LB-8006.01)

      REFERENCE:     (a)   DODIG   memo   of 10 Mar 98

      ENCLOSURE:     (1)   Department of the Navy Comments on DODIG
                           Draft Evaluation Report on Defense Hotline
                           Allegation on Bunker Fuel Purchases at
                           Naples, Italy (Project No. 7LB-8006.013

           In response to reference (a), our comments are provided
      in enclosure (1). We concur with the finding and the intent
      of the recommendation.




                                             WILLIAM J. +AEFEk/
                                             Deputy Assistant Secretary
                                             of the Navy
                                             Planning, Programming and
                                             Resources


       copy to:
       FMO-31
       COMNAVSUP   (91E)
       NAVPETOFF   (FMA)




                                            20
                                             Department of the Navy Comments




                  Departmentof the Navy Comments
                                on
                  DODIG Draft Evaluation Report
                                on
     Defense Hotline Allegation on Bunker Fuel Purchases            at
                          Naples, Italy
                    (Project No. 7LB-8006.01)

Finding.     Purchases   of Bunker   Fuel   From   Non-contract   Sources

All but one of the Navy ships identified in the Defense
Hotline allegation purchased bunker fuel from non-contract
sources rather that from the available Defense Energy
Support Center (DESC) contract source.  The remaining ship
did not purchase fuel during the period alleged in the
Defense Hotline complaint.  On six occasions, fuel was
purchased from non-contract sources because Naval Regional
Contracting Center (NRCC), Naples, did not receive timely
notification from the Navy Petroleum Office (NAVPETOFF) that
a bunker fuel contract was in force at Naples.   For the
seventh purchase, the Navy was not able to produce records
on the quantity of fuel purchased, the amount paid or
justification for purchasing the fuel from a non-contract
source at Livorno, Italy. As a result, we estimated that by
not using the contract source for the six purchases at
Naples, the Navy paid $66,242 more than necessary.   We were
unable to quantify the purchase cost impact at Livorno.

DONcomnent

Concur.

Recommendation

We recommend that the Commanding Officer, NAVPETOFF,
establish effective communication procedures that promptly
distribute bunker fuel contract data to officials and
organizations responsible for ordering bunker fuel for Navy
ships.   Those procedures should include a feedback mechanism
to confirm that contract data was actually received so that
prompt action can be taken in those instances when ordering
officials and organizations do not acknowledge receipt of
new or changed contract data.

WN   comment

Concur with the recommendation of establishing effective
communication procedures to promptly distribute contract
information.  However, the inclusion of a feedback mechanism
to confirm receipt from all possible ordering officials and


                                                            Enclosure    (1)




                                     21
Department   of the Navy Comments




             organizations is considered impractical based on the numbers
             involved.   Receipt confirmation feedback will be obtained
             only   from the activities which request that bunker
             contracts be established.

             After learning of these purchases in Naples, and prior KO
             the Hotline complaint, NAVPETOFF started making
             communication improvements.    Through a close working
             relationship with DESC and constant communications between
             DESC,  customers, and NAVPETOFF, the following corrective
             actions have been taken:

                   a. Contract information is distributed via military
             messages with an expanded distribution.   Upon receipt of
             contract award and modification information from DESC, NPO
             immediately notifies the activity generating the
             requirement, Fleet Commanders, NRCCs Naples and Singapore,
             all Defense Attache Offices and other interested parties via
             message traffic.   The message requests widest dissemination
             to all subordinate commands who will utilize the contract.
             Requirement activities are then contacted telephonically to
             verify receipt of the message.

                  b. After a message is sent, a change transmittal or
             update to NAVPETOFF Instruction 4290.1, Commercial Contracts
             for Bunker fuel, is distributed as warranted.  The
             distribution for this instruction is to 639 Navy activities.

                   C.  NAVPETOFF recently launched a website at which
             NAVPETOFF Instruction 4290.1 is available for viewing and
             printing.   The website address is being included in all
             bunker fuel correspondence.

             Actions   remaining:

                  a. NAVPETOFF is updating NAVPETOFF Instruction 4290.1,
             Commercial Contracts for Bunker Fuel, to make the contract
             information more user friendly.   The update will include the
             website address.   Estimated completion date is 30 May 1998.

                  b. NAVPETOFF will send messages semi-annually to all
             ships reminding Supply Officers to use bunker contracted
             fuel when available.  Action is ongoing.




                                                            Enclosure     (1)




                                          22
Evaluation Team Members

This report was prepared by the Readiness and Logistics Support Directorate,
Office of the Assistant Inspector General for Auditing, DOD.


Shelton R. Young
Raymond D. Kidd
John A. Gannon
Lieutenant Colonel Thomas P. Toole, U.S. Air Force
Henry Y. Adu
Bernard Baranosky
